OIG Investigative Reports Press Release Columber OH., 11/14/2013 - Columbus Man Pleads Guilty to Using Stolen Identities to Defraud Federally Funded Tutoring Program
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT of OHIO
NEWS
Columbus Man Pleads Guilty to Using Stolen Identities to Defraud Federally Funded Tutoring Program
FOR IMMEDIATE RELEASE
THURSDAY, NOVEMBER 14, 2013
http://www.justice.gov/usao/ohs
CONTACT: Fred Alverson
Public Affairs Officer
(614) 469-5715
COLUMBUS, OHIO –Ashkir Ali, 46, of Columbus pleaded guilty today to defrauding the U.S. Department of Education’s Supplemental Education Services Program by billing two area school districts more than $100,000 for tutoring sessions that were never provided.
Carter M. Stewart, United States Attorney for the Southern District of Ohio, Thomas D. Utz, Jr., Special Agent in Charge for the North Central Region of the U.S. Department of Education, Office of Inspector General and Ohio Auditor of State Dave Yost announced the pleas entered today before U.S. District Judge Edmund A. Sargus Jr.
“These crimes were committed in order to abuse a program set up to help central Ohio schoolchildren,” U.S. Attorney Stewart said. “We will continue to work with federal and state law enforcement to uncover and prosecute such crimes.”
“This is a theft of literacy, not just money,” Auditor Yost said.  “These boys and girls will never get those years of learning back.”  Yost commended the federal authorities for their cooperation and “their passion to win justice for these kids.”
Ali pleaded guilty to one count of making false statements, which is punishable by up to five years in prison, and one count of aggravated identity theft, punishable by a two-year sentence that he must serve after completing the sentence for making false statements. Judge Sargus will set a date for sentencing.
Ali owned WAISS Network Technologies. According to court documents, Ali created fraudulent forms using forged tutor, student and parent names and other information. He billed Columbus City Schools and was paid for tutoring 51 students who either never attended tutoring or who went very few times. Investigators determined the fraudulent scheme netted Ali approximately $100,000 over a two-year period.
Ali used the same method to defraud Southwestern City Schools out of approximately $20,000 in the 2010-2011 school year. Investigators did not find a single student from Southwestern City Schools who attended tutoring allegedly provided by WAISS.
Allegations surfaced of possible misconduct by providers of the Supplemental Education Services Program in January 2011.  The Auditor of State’s Special Investigations unit conducted a special audit of the Columbus City School District in June 2011.
U.S. Attorney Stewart commended the investigation by the U.S. Department of Education Office of Inspector General and State Auditor Yost’s Special Investigations Unit, as well as Assistant U.S. Attorney Kenneth Affeldt who is representing the United States in this case.
#   #   #
Top
Printable view
Last Modified: 11/19/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov